                                                                                                                          June 26, 2014



General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
 Commander, International Security Assistance Force

Lieutenant General Thomas B. Bostick
Commanding General and Chief of Engineers
  U.S. Army Corps of Engineers


General Dunford and Lieutenant General Bostick:

The United States and other donor countries have reportedly invested $4 billion in the reconstruction
of Afghan roads. As you know, the United States provided a significant proportion of those funds. The
U.S. Agency for International Development has invested over a billion dollars in road projects, and
the Department of Defense (DOD) has provided hundreds of millions of dollars more. Following
conversations that I had during my trip to Afghanistan fast fall, I'm concerned that the U.S.
government may be supporting road projects in Afghanistan that will be unsustainable due to not
being properly maintained.

For example, in Kabul, a senior U.S. government official expressed his misgivings to me regarding
the efficacy of U.S. and Afghan road maintenance efforts and stated his belief that maintenance
problems pose a major challenge to the sustainability of Afghanistan's transportation network. A
recent report in the Washington Post confirmed this when it pointed out that Highway 1, a critical
piece of Afghanistan's transport infrastructure, is nearly impassible at certain points due to damage
caused by insurgent activity, coupled with a lack of road maintenance by the Afghan government.1
It's reported that this road was built by U.S. and coalition partners at a cost of approximately $3
billion. The Washington Post article claimed that USAID ceased funding Afghan government road
maintenance programs in 2012, when the agency determined that the Afghan government's road
maintenance efforts were inadequate. The article did not mention whether DOD or other agencies
provide or have provided funding for the Afghan government to conduct road maintenance.

I am concerned that roads built at great risk and expense by the U.S. and other donors are not and
will not be properly maintained. I'm also troubled by reports that roads may continue to be built in
Afghanistan despite an apparent shortage of effective maintenance plans or capacity.




1   Kevin Sieff, “After Billions in U.S. Investment, Afghan Roads Are Falling Apart,” Washington Post, January 30, 2014
To provide SIGAR with a better understanding of the status of DOD-funded road projects in
Afghanistan and the plans to sustain them, please provide a response to the attached questions, no
later than July 10, 2014.

I am submitting this request pursuant to my authority under Public Law No. 110-181, as amended,
and the Inspector General Act of 1978, as amended. Should you have any questions or concerns,
please contact Mr. Jack Mitchell, Director, Office of Special Projects, at            or



                                                                 Sincerely,




                                                                 John F. Sopko
                                                                 Special Inspector General
                                                                   for Afghanistan Reconstruction


Enclosure I: Questions Regarding Maintenance of U.S.-funded Road Projects




SIGAR-14-72-SP Inquiry Letter: Maintenance of DOD-Funded Roads                                  Page 2
ENCLOSURE I: QUESTIONS REGARDING MAINTENANCE OF U.S.-FUNDED ROAD
PROJECTS

    1. How much money has DOD spent on road construction in Afghanistan?

    2. Is DOD currently constructing or planning to construct roads in Afghanistan? If so, please list
       all such projects, their locations, and the estimated cost of each project.

    3. Who is responsible for maintaining the roads constructed by DOD in Afghanistan?

    4. Has DOD provided funding for maintenance of roads in Afghanistan? If so, please list the
       funding by year, and include planned expenditures for future years.

    5. What is the current capacity of the Afghan government to maintain these roads?

    6. What will be the funding source for the maintenance of these roads in the future?




SIGAR-14-72-SP Inquiry Letter: Maintenance of DOD-Funded Roads                                   Page 3
